U.S. DEPARTMENT OF COMMERCE (             Jlr)
                                         ~t.tf! OF ~ .




          Office ofInspector General -~.. ~ .l
                                          ~..n;s~




   National Institute ofStandards
                   and Technology


      The UniversityofTexas at 

                     Arlington 

    MEP Award 70NANB5H1005 


              Final Report No. DEN-18573
                               · June2009




           Denver Regiona.l Office ofAudits
U.S. Department ofCommerce                                                                    Final Audit Report No. DEN-18573 

Office ofInspector General                                                                                            June 2009 

                                                          CONTENTS 


Introduction .......... .... ...... .. .. ....... .... ................................................................................ 1 


Findings and Recommendations ................................................................. .................. 2 


      I.      Subrecipient Questioned Costs ....................................................................... 2 


              A.     $1,271,827 in unallowable subrecipient costs ......................................... 2 


              B.     -               claimed based on estimated co.s ts ............................................ 3 


              C. $6,439 excessive indirect costs claimed ...................................... ............. 5 


              D. Other subrecipient issues........................... ....................... ....................... 5 


              E.     University response ......... ......................................................................... 6 


               F . OIG comments ........ ...... ............. .................................................... ........... 7 


       II.     UTA Questioned Costs ... ........................... ...................................................... 9 


              A. · ~in questioned lobbying costs....................................... :............... 9 


               B.     - i n unallowable other direct costs ............................................. 10 


               C.     - i n questioned indirect costs .........................................,............ 10 


              ·D. University response................................................................................ 11 


               E.     OIG comments ........................................................................................ 11 


   · III. Recommendations.......................................................................................... 12 


Summary Results of Financial Audit.......................................................................... 13 


Appendix A: Objectives, Scope, and Methodology ........... ;....... ................................... 14 

Appendix B: Summary of Source and Application of Funds ...................................... 16 

Appendix C: Summary of Financial Compliance Audit ............................................. 17 

Appendix D: Recipient Response ................................................................................. 18 

US. Department o_(Commerce                               Final Audit Report No. DEN-18573 

Office oflnspecwr General                                                       June 2009 



                                   INTRODUCTION 


In March 2005, t he National Institute of Standards and Technology (NIST) awarded
Manufacturing Extension Partnership (MEP) Cooperative Agreement No.
70NANB5H1005 to the University of Texas at Arlington (UTA) to continue
operating the Texas Manufacturing Assistance Center. The mission of the MEP
center is to increase the global competitiveness of Texas manufacturers by
providing assistance in the appropriate use of technologies and techniques. The
award funds seven centers throughout the state-one operated by the prime
recipient, UTA, and six operated by other institutions under subawards from UTA:
University of Houston, University of Texas- El Paso, Southwest Research
Institute, Texas Engineering Extension Service, Texas Tech University, and
University of Texas - Pan American. The March 2005 award approved funding for
the period of December 1, 2004, through June 30, 2005, but was later amended to
extend through August 31, 2007. Total estimated project costs for the 33-month
award period were $42,035,636, with the federal government's share not to exceed
$14,010,,422, or 33.33 percent of allowable project costs.

  In March 2007, we initiated an audit of the award to determine whether UTA had
· complied with award terms and conditions and NIST operating guidelines for MEP
  centers. The audit covered September 1, 2005, through March 31, 2007, during
  which time UTA claimed total project costs of $21,126,265 and received federal .
  reimbursements totaling $6,595,798.

 In addition to UTA's claims for incurred costs, we examined cost claims submitted
 to UTA from two subrecipients: Texas Engineering Extension Service and
 Southwest Research Institute.




                                           l
U.S. Department ofCommerce                                 Final Audit Report No. DEN-18573 

Office ofInspector General                                                         June 2009 



                             FINDINGS AND RECOMMENDATIONS 


Our audit questioned $1,619,280 in costs, including $1,533,055 in subrecipient
contractual costs and $86,225 in UTA costs.

Apart from the questioned costs, we identified issues regarding two subrecipients
that we would like to bring to NIST's attention.

     1. 	 Subrecipient Texas Engineering Extension Service used funds budgeted for
        indirect costs to cover direct project costs without approval from NIST or
        UTA and incorrectly reported program income generated by its subrecipients.

     2. 	 Subrecipient Southwest Research Institute improperly reported indirect costs
          as in-kind contributions.

I.   Subrecipient Questioned Costs

OIG questions $1,533,055 of claimed contractual costs, including (1) $1,271,827
from subrecipient Texas Engineering Extension Service (TEEX) and two of its
subrecipients that we determined were not allowable MEP project costs;
(2) -        from TEEX that were based on estimates and therefore did not have
adequate supporting documentation; and (3) $6,439 related to excessive indirect
costs claimed.

        A. $1,271,827 in unallowable subrecipient costs

In 2006, TEEX made two subawards: one to Biotech Manufacturing Center, a
nonprofit organization that provides a full-scale manufacturing environment for
medical device developers, ·and another to Emergency Services Training Institute, a
division of TEEX that trains firefighters and emergency responders. Both
organizations recover a portion of the cost of providing services through customer
fees.                                  ·

Subaward·agreements required these two organizations to (1) report to TEEX all
costs and associated revenue for services provided to manufacturing customers
located in the state of Texas, and (2) advise their Texas-based customers of
additional services available from the MEP center, as needed.

TEEX reported the subrecipients' accumulated costs to UTA as MEP project costs.
UTA in turn included these costs in its claims to NIST. As permitted by its
agreement with UTA, TEEX was reimbursed for. percent of its subrecipients'
costs.
       -Biotech Manufacturing Center reported total costs o f - during the
       13-month period that coincided with our audit period, and TEEX received

                                            2

U.S. Department of Commerce                                Final Audit Report No. DEN- /8573 

Office ofInsp ector General                                                        June 2009 



        reimbursement from UTA for - ·

        - The Emergency Services Training Institute reported total costs o f ­
        during the 7 months that coincided with our audit period, and TEEX received
        reimbursement o f - ·




 We question whether the subrecipients' reported costs are allowable MEP costs
 because they were associated with services the two were already providing and
 would have continued to provide had there been no association with the MEP. With
 the exception of some marketing of potential MEP services, the local manufacturing
 community received no additional services by virtue of the connection with the
 MEP. In short, we found little to no value added by the subrecipients' association
 with the MEP. And while both subrecipients told us they had been actively
 marketing MEP services to their Texas-based manufacturing customers, they could
 recall referring only three customers for additional services .

. Therefore, the $1,271,827 in claimed costs is for services provided to manufacturers
  whose only connections to the mission of the MEP are (1) they happen to be located
  in the state of Texas, and (2) they may have been advised of additional services they
  could receive from the MEP. As a result of these claims, TEEX received federal
  funds in the amount of $190,77 4 and its subrecipients received federal funds of
  $190,77 4. Though both subrecipient organizations charged their customers for
  services, neither used their reimbursements to reduce amounts charged. Thus, the
  Texas-based manufacturers received no cost-benefit from the subrecipients'
  association with the MEP program, and the $190,774 in federal funds the
  subrecipients received appears to be a windfall. Furthermore, TEEX incurred no
  costs associated with the claims submitted by its subrecipients, so its $190,774
  reimbursement also appears to be a windfall.

        B. ~claimed based on estimated costs

 TEEX claimed -         under its MEP subaward by allocating costs from 12
 different program accounts from June 1, 2006, through August 31, 2006, and
 claimed -       in MEP costs related to a "Basic Economic Development Course."

      •	                                    According to TEEX officials, the
       orgamzation conducted an internal "brainstorming session" in June 2006 to
       determine what percentage of time various TEEX programs spent dealing
        with manufacturers in the state of Texas. They cons ulted with program
        managers to determine which services benefited manufacturers within the

                                            J

US. Department ofCommerce                                  Final Audit Report No. DEN- 18573 

Office ofInspector General                                                         June 2009 



       state and allocated expenses incur red by those divisions based on estimates.
       The allocations were based on types of services performed, rather than on
       work performed for the benefit of specific MEP customers.

       TEEX concluded that 12 program accounts were candidates for allocation,
       and claimed as MEP project costs the respective percentfJ,ges of total costs in
       each account during the 3-month period in question. Seven of the 12 accounts
       were allocated a t . percent to MEP cost claims, 4 accounts were allocated
       a t . percent, and 1 account was allocated a t . percent.

       We asked for documentation supporting how these percentages were derived.
       Officials told us they ha d not retained any written records and that all TEEX
       personnel involved in developing the percentages had left the organization.

       We reviewed UTA's MEP operating plan for the period September 1, 2005,
       through August 31, 2006, to determine whether the university and NIST
       were aware that TEEX would be allocating estimated costs incurred by
       programs outside its dedicated MEP program. We found no such indication
       but did fmd that TEEX's operating plan budget for this award year showed
       13 full-time staff performing MEP services. The operating plan for the
       subsequent award period provided for only 3 full-time staff. During this
       subsequent period TEEX lost a significant number of staff dedicated to the
       MEP, and it appears that during the final 3 months of the subaward period
       (ending August 31, 2006), TEEX allocated- from other programs to
       its MEP subaward to, in part, make up for costs it was unable to claim a s
       staff left the MEP program.

      • - related to BasicEconomic Development Course. TEEX officials ·
      de-scribed this course as training in how private and public industrial and
      economic development organizations operate. We asked the basis for claiming
      this training as an MEP expense, given.that the content appears to be
      outside the MEP's scope of providing assistance to Texas manufacturers.
      TEEX officials explained that the -claimed equals. percent of costs
      incurred in providing the training. They arrived at this percentage by
      estimating that if individuals attending the class do become associated with
      an industrial or economic development organization, they will spend.
      percent of their time providing services to manufacturers in the state.

TEEX's estimated charges in both instances violate 15 CFR 14.21, which
establishes minimurn financial management standards for Department of
Commerce financial assistance awards. This regulation, incorporated into TEEX's
subaward, requires the recipient of financial assistance to maintain a system that
provides accurate, current, and complete disclosure of the financial results of each
federally sponsored award. (See 15 CFR 14.2l(b)(1)). Cost claims submitted to NIST

                                            4

 O.S. Department ofCommerce                                 Final Audit Report No. DEN-18573 

 Office ofInspector G eneral                                                        June 2009 



 must reflect actual costs incurred in performing services under the MEP award, 

 not- as in these instances-estimates based on assumed percentages of costs that 

 may have some connection to Texas manufacturers, but were incurred outside the 

 MEP program. 


         C. $6,439 excessive indirect costs claimed

  We questioned $6,439 claimed by subrecipient University of Texas - El Paso, which
  UTA recorded as contractual costs, because this amount exceeded the approved
. budget's line item for indirect costs for the period September 1, 2005, through
  August 31, 2006. Department of Commerce Financial Assistance Standard Terms
  and Conditions, Section A(5)(t) , states,

          "Regardless of any approved indirect cost rate applicable to the award, the
          maximum dollar amount of allocable indirect cos ts for which (the
          Department) will reimburse the recipient shall be the lesser of (1) the line
          item amount for the Federal share of indirect costs contained in the approved
          budget of the award; or (2) the Federal share of the total allocable indirect
          costs of the award based on the indirect cost rate approved by a cognizant or
          oversight Federal agency and current at the time the cost was incurred,
          provided the rate is approved on or before the award end date."

  Section J.02 of the Department's Standard Terms and Conditions requires
, subrecipients to comply with all terms and conditions of the award.

          D~   Other subrecipient issues

 We found that TEEX used $23.8 ,338 budgeted for indirect costs to cover direct costs
 claimed from September 1, 2005, through August 31, 2006, without prior,approval
 from NIST or UTA. Department of Commerce Financial Assistance Standard Terms
 and Conditions, Section A( 4)(c), states, "The.recipient is not authorized at any time
 to transfer amounts budgeted for direct costs to the indirect costs line item or vice
 versa, without the prior approval of the Grants Officer." We did not include these
 costs in the questioned amounts because to do so would duplicate a portion of the
 questioned $1,271,827 related to TEEX's two subrecipients. If NIST determines any
 portion of the costs claimed for the two subrecipients is allowable, it should
 carefully analyze the amounts it accepts to prevent a violation of Section A(4)(c).

 We also found that TEEX reported incorrect program income for its subrecipients,
 using an estimate that represented . percent of total costs incurred. A June 2007
 monitoring report issued by UTA also mentioned this incorrect reporting. The
 subrecipients have since submitted actual program income to both UTA and TEEX.
 UTA officials stated that the university will revise its financial reports to NIST to
 reflect actual income received.

                                             5

U.S. Department o_(Commerce                                  Final Audit Report No. DEN-18573 

Office of Inspector General                                                          June 2009 



Subrecipient Southwest Research Institute erroneously claimed its allocation of
facility capital cost-of-money charges from September 2005 through March 2007,
totaling $63,412, as an in-kind contribution. The MEP operating plan states that
Southwest Research Institute will provide in-kind support to the program by
contributing its cost of facilities capital. Although we found no material issues
regarding the calculation of these costs, they should not be claimed as in-kind
contributions, but instead should be a component of the institute's indirect costs.
Facility capital cost of money was applied to the institute's projects based on a rate
approved by the Defense Contract Audit Agency on behalf of the federal
government. These costs should be included in the indirect cost category for both
budgetary and reporting purposes. UTA should direct Southwest Research Institute
to include past and future facility capital cost of money allocations in its indirect
cost line item, rather than reporting them as in-kind contributions.

        E. University response

UTA's complete response is included, without exhibits, as appendix D. A brief
summary of the primary points made in UTA's response and our comments follow.

 Relationship with Emergency Services Training Institute. UTA stated that TEEX
 only has one subrecipient, Biotech Manufacturing Center, and that its relationship
 with the Emergency Services Training Institute exists under a memorandum
 agreement between two internal TEEX divisions.

 $1.271.827 in unallowable subrecipient costs. UTA disagreed that this amount
 should be questioned, contending (1) the costs are allowable and reasonable, (2) the
 costs were incurred in support of the intent of the MEP program, (3) Biotech and
 Emergency Services Training Institute provide invaluable extension services to the
 MEP, and (4) UTA and NIST have a mutual understanding regarding the
 allowability of establishing partnerships and leveraging the existing resources of
 subrecipients.

  UTA cit~d the America COMPETES Act, P .L. 110-69, Sec. 3003(a), which states
  "... it is anticipated that a Genter will enter into agreements with other entities such
  as private industry, universities, and State governments to accomplish
  programmatic objectives and access new and existing resources that will further the
  impact of the Federal investment made on behalf of small- and medium- sized
  companies. All non-Federal costs, contributed by such entities and determined by a
  Center as programmatically reasonable and allocable under MEP program
. procedures are includable as a portion of the Center's contribution." UTA stated
  that the approved operating plan and cooperative agreement provide evidence that
  Texas Manufacturing Assistance Center (TMAC) has determined the services of
  Biotech Manufacturing Center and Emergency Services Training Institute are
  programmatically reasonable and allocable to the MEP program .

                                             6

U.S. Department ofCommerce                               Final Audit Repo1·t No. DEN- 18573 

Office oflnspecior General                                                        June 2009 





In s ummary, UTA stated, "allowability of costs is described in accordance to
applicable federal regulations, ... the reasonableness of these questioned costs are
established in the communication between NIST and UTA and are further validated
in TMAC's evaluation and communication with NIST. The costs are also properly
managed and monitored by the Prime Agency." Additionally, UTA stated that "The
TMAC Partnership and leveraging of existing resources are encouraged by the MEP
and sustainability or expansion of these services to reach small to medium
manufacturers is an important objective of the MEP. [Biotech Manufacturing
Ce nter and Emergency Services Training Institute] have shown evidence of the
expansion ofMEP services and they will continue to be evaluated in terms of their
effective ness."

~in estimated costs claiined from allocations of12 different TEEX accounts.
UTA stated that the TMAC operating plan for the period September 1, 2005,
through August 31, 2006, included 12 agency funded projects supplied by TEEX
that were intended to enhance the TMAC offerings for manufacturers. UTA
explains that these 12 projects were started in January 2006 but associated costs
were not allocated to the TMAC project until June 2006, after TEEX determined the
direct benefit to manufacturers. UTA states that because the allocation of costs
based on proportional benefit is allowable under OMB Circular A-21, Sec. C(4)(d),
the -         should be allowed. UTA also noted that 7 of the 12 project accounts
were allocated to the TMAC project a t . percent, which is not an issue of
proportional benefit and should not have been questioned for that reason.

~questioned in connection with the Basic Economic Development Course.
UTA contended this amount should be allowed because this course was determined
to have a direct impact on Texas manufacturers. Manufacturing and its importan~e
to economic development is referenced several times throughout the course material
and TMAC is listed in the manual as a resource for course participants.

$6.439 in excessive indirect costs claimed by subrecipient University of Texas - El
Paso that exceeded the approved budget. UTA contended this amount should be
allowed because the NIST approved budget was for the prime awardee, UTA, which
did not exceed budgeted funds for indirect costs, and that UTA does not need NIST
approval for budget changes at the subrecipient level.
~in questioned in-kind costs. UTA provided additional support for this
amount-copies ofTMAC noncash contribution· forms for in-kind costs claimed
related to three economic development centers. These forms included the percent of
time • percent), salary rate, a brief description of the tasks performed, and an
after-the-fact signed certification by the contributor.

        F. OIG comments


                                           7

U.S Department ofCommerce                                  Final Audit Report No. DEN-18573 

Office of Inspector General                                                        June 2009 



Relationship with Emergency Services Training Institute. Despite UTA's
clarification that that the Emergency Services Training Institute is not a
subrecipient, but a partner under a memorandum agreement between two internal
TEEX divisions, UTA and TEEX referred to the institute as a subrecipient in the
interagency memorandum agreements, award correspondence, and conversations
with the OIG. We continue to refer to both the institute and the. Biotech Center as
subrecipients for clarification purposes.

$1.271,827 in unallowable subrecipient costs. UTA failed to provide any new
information that changes our opinion and position regarding questioned
subrecipient costs of $1,271,827 claimed for Biotech Manufacturing Center and
Emergency Services Training Institute. UTA argued that the subrecipient
relation ship with Biotech Manufacturing Center and Emergency Services Training
Institute is an invaluable extension of services provided by TMAC to small and
medium sized manufacturers in the state ofTexas. Again, we question whether the
costs reported by the two subrecipients are allowable MEP costs because these costs
were associated with services the two subrecipients were already providing and
would have continued to provide had there been no relationship with the MEP. We
found little to no value added to the MEP partnership by the subrecipients'
association.

          ~...!2f!~~~~~::s We continue to question t h e - allocated from 12
TEEX accounts and              a ssociated with a Basic Economic Development Course.
Although OMB Circular A-21 does allow for the allocation of costs based on
proportional benefit, Sec. C(4)(a) of the circUlar states that "a cost is allocable to a
sponsored agreement if ... it benefits both the sponsored agreement and other work
of the institution, in proportions that can be approximated through use of
reasonable methods." The ''brainstorming session" during which TEEX assigned
percentages of costs from 12 program accounts is not considered a reasonable
method. The percentages were not based on estimates of the proportions of time
each of the 12 programs spent assisting MEP customers, but rather on whether the
customers of the 12 non-MEP programs happened to be manufacturers located in
the state of Texas. UTA's response did not include a description of the type of
services provided by the 12 programs, nor did UTA explain the nature of an.y
relationships between the 12 programs' customers and the MEP center.

- - f o r Basic Economic Development Course. UTA ~ontended this course should
be accepted as allowable because it was determined to have a direct impact on
Texas manufacturers. TEEX officials stated that the - was based on the
estimate that if individuals attending the class do become associated with an
industrial or economic development organization, they will spend. percent of their
time providing services to manufacturers in the state of Texas. However, UTA
provided no documentation to support this statement.


                                            8

U.S. Department ofCommerce                                 Final Audit Report No. DEN-18573 

Office ofInspector General                                                         June 2009 



$6.439 in excessive indirect costs. NIST's operating plan guidelines for MEP centers, 

dated March 2005, require all MEP subrecipient agreements to include the 

applicable administrative requirements and all general and special award 

conditions imposed on the recipient. Additionally, the administrative priciples 

contained in 15 CFR, Part 14, are incorporated by reference into UTA's cooperative 

agreement with NIST. These requirements flow down to subrecipiemts, pursuant to 

15 CFR, Sec. 14.5. We disagree with UTA's assertion that budget changes at the 

subrecipient level do not need to be approved by NIST. Amendment No. 4 of the 

cooperative agreement incorporates the scope and budget outlined in the TMAC 

operating plan, for the period of September 1, 2005, through August 31, 2006, which 

includes a separate budget for UTA and all six of the main subrecipient 

organizations. UTA and each of the six s ubrecipients are required to adhere to the 

budget identified in this operating plan and all corresponding award crit~ria, 

including the requirement that claimed indirect costs be limited to the amount 

contained in the approved budget of the award. Therefore, we continue to question 

$6,439 claimed by subrecipient University of Texas - El Paso for the amount 

exceeded in the approved budget's line item for indirect cost s. 


        ~-"=~===         The TMAC Non-Cash Contribution Forms submitted in 

 response to the draft audit report contains all of the necessary information 

 identified by the MEP General Terms and Conditions. These costs are no longer 

 questioned.                                         ·


  Other issues. UTA stated that the iss ues concerning estimated program income and
  improperly recorded indirect costs have been corrected. However, since there was no
  documentation provided in its response to support this -statement, the grants officer
  should verify that program income and indirect costs have been revised and
· reported correctly by UTA during the audit resolution process.

 II. · UTA Questioned Costs

 UTA claimed questioned costs of $86,225: (1) - r e l a t e d to lobbying activities,
 (2) - f o r hotel expenses that were erroneously claimed twice, and (3) ­
 in indirect costs related to the questioned lobbying and hotel expenses. 


        A. ~ in questioned lobbying costs

 The University of Texas at Arlington claimed - i n costs related to 2 years'
 annual dues paid to the American Small Manufacturers Coalition. The coalition's
 web site describes it as an advocate for legislative and programmatic resources that .
 allow small manufacturing clients to better compete in the global marketplace. The
 coalition and its members achieve this mission by increasing awareness of the
 importance of American small manufacturers, the challenges they face, and the
 federal legislation and programs affecting them. Among other activities undertaken

                                            9

US. Department ofCommerce                                  Final Audit Report No. DEN-18573 

Of}ice ofInspector General                                                         June 2009 



by the coalition are yearly "Hill Day" events in Washington, D.C., where its staff,
members, and clients advocate for congressional support for the MEP program
during the federal appropriations process. Based on inf()rrriation the coalition
reported to the Secretary of the United States Senate, the organization incurred
~ in _expenses relating to lobbying activities for the period July 1, 2005,
through June 30, 2007.

Section J .33 of OMB Circular A-21 provides that the costs of a covered institution's
membership in a business, technical, or professional organization are allowable.
Section J.28(a) provides that, notwithstanding any other provision of the circular,
costs associated with certain types of lobbying activities (including attempts to
influence the introduction of federal or state legislation, the enactment or
modification of pending federal or state legislation through communication with any
member or employee of Congress, or any government official or employee in
connection with a decision to sign or veto enrolled legislation) are unknot allowed.

Although Section J . 33 would ordinarily allow us to accept the costs of dues paid to
a business, professional, or technical organization, the American Small
Manufacturers Coalition clearly engages in the type of lobbying activities that are
prohibited by Section J.28(a). Because we cannot tell from the coalition's invoices to
UTA which portion of the dues supports prohibited lobbying activities and which
portion funds activities that might be allowable under the circular, we are
questioning the entire - c l a i med for membership dues as unallowable
lobbying costs.

       B. ~ in unallowable other direct costs

UTA's direct cost claims include- for hotel room charges incurred while
hosting an MEP-related conference. University officials explained, and supporting
documentation confirmed, that UTA intended to place these charges in an account
for unallowable MEP costs· to ensure that they were not claimed twice- first by the
university, then by subrecipients attending the conference. However, these costs
were charged to an account that tracks allowable MEP costs and were ultimately
included in tlie total program outlays reported to NIST. University officials told us
they are taking the appropriate corrective action in light of this oversight.

        C. ~ in questioned indirect costs

The University of Texas at Arlington's claims included- in questioned
indirect costs associated with the -       in questioned lobbying costs. We
calculated the questioned indirect costs using the university's indirect cost rate of
• percent, applied to costs processed through the university's accounting system.



                                           lO
U.S. Department ofCommerce                                Final Audit Report No. DEN-18573 

Office ofInspector General                                                        June 2009 



       D. University response

UTA's complete response is included as appendix D. A brief summary of the
primary points in the response and our comments follow:

Unallowable lobbying costs.UTA stated that the dues paid to the American Small
Manufacturing Coalition did not support any lobbying activities and should not be
questioned. The university included a letter it received from the coalition stating
that "FY06 membership dues were applied only to ASMC's general and
administrative expenses. These expenses include an MEP Salary Survey, MEP
state funding s urvey, instructional handbook to build and maintain stakeholder
relationships, and regular legislative updates, which include updates on MEP and
manufacturing related legislation and reviews of manufacturing policy papers."
This letter further states, "TMAC was invoiced for - i n FY07 for
administrative and general services only, and continues to be billed only for non­
lobbying activities."

Unallowable other direct costs. UTA stated that it has removed the~ that
was inadvertently included in the total program outlays reported to NIST and
provided a copy of a Statement of Account for September 2007 as evidence of the
correction.

Questioned indirect costs. UTA believes that ~here should be no questioned indirect
costs. These indirect costs relate to questioned direct costs for coalition dues that
UTA believes should be accepted as allowable and direct costs questioned for hotel
room charges, in which related indirect costs were incorrectly questioned in the
draft audit report, that UTA has now documented that no associated indirect costs
were claimed.

        E. OIG comments

We continue to question the -claimed for dues paid to the American Small
Manufacturers Coalition. Although UTA provided a letter from the coalition's
executive director and invoices indicating the dues were used to pay nonlobbying­
related costs, the documentation is not sufficient to validate the claims. At a
minimum, UTA should provide financial records from the coalition that
demonstrate the dues were accounted for separately from the coalition's other dues
reve nue and that they were restricted to nonlobbying uses.

The Statement of Account provided by UTA does confirm that ~was placed
into an account previously ide ntified as one used by UTA to process unallowable
MEP-related expenses. However, we still question these costs because the~
is included in the total program outlays reported as of March 31, 2007. If the grants
officer can verify UTA's adjusted subsequent cost claims submitted to NIST

                                          11 

 US. Department ofCommerce                                Final Audit Report No. DEN- 18573 

 Office of fnspecror General                                                      June 2009 



 removing these questioned costs, then this adjustment should be accounted for in
 the audit resolution process.

  We verified from documentation provided with UTA's response that the university
· did not claim indirect costs related to the -      of unallowable hotel charges;
  therefore, we reduced indirect costs questioned in the final report b y -· Since
  the -claimed for American Small Manufacturers Coalition dues remain
  questioned, we continue to question the associated indirect costs o f -·

 III. Recommendations

 We recommend that the grants officer disallow questioned costs of $1,619,280 and
 recover $94, 120 of excess federal funds.




                                           12 

U.S. Department ofCmnmerce                                           Final Audit Report No. DEN-18573 

Office ofInspector General                                                                   June2009 




                             SUMMARY RESULTS OF FINANCIAL AUDIT
                     (September 1, 2005, through March 31, 2007)


Federal Funds-Disbursed                          $6,595,798
Costs Incurred             $21,126,265
Less Questioned Costs         1.619,280
Costs Accepted               19,506,985
Federal Cost Sharing Ratio x      33.33%
Federal Funds Earned                                     6.501.678

Refund Due the Government                            $     94.120




#
Dr. Brett M. Baker
Assistant Inspector General for Audit




                                              13 

U.S. Department o_(Commerce                               Final Audit Report No. DEN- 18573 

Office ofInspector General                                                        June 2009 



                   APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the University of Texas at
Arlington claimed costs to NIST, including costs incurred by subrecipients, that
were reasonable, allocable, and allowable in accordance with applicable federal cost
principles, cooperative agreement terms and conditions, and NIST policy, including
MEP Operating Plan Guidelines. To meet our objective, we interviewed recipient
and NIST Grants Office officials, reviewed NIST award documents, examined          .
financial records of the University of Texas at Arlington, and analyzed the budgeted
versus actual cost claims for the university and all of its subrecipients. We also
interviewed officials and examined the financial records of two subrecipients: Texas
Engineering Extension Service and Southwest Research Institute.

Our audit objective did not include assessing the recipient's performance under the
award, so any subsequent performance audits could result in additional questioned
costs. We did not rely soleiy on computer-processed data but instead augmented this
data with substantive t ests of transactions to develop our fmdings and
recommendations.

  Our scope included costs claimed by the UTA MEP from September 1, 2005,
  through March 31, 2007, and an assessment of the·recipient's internal controls
  applicable to the award to evaluate the effectiveness of the control and
  accountability systems. We reviewed UTA's single audit reports for the years ended
  August 31, 2005 and 2006. The Texas State Auditor's Office conducted the audits in
  accordance with Office ofManagement and Budget Circular A-133. These reports
  found no material weaknesses. We did not rely upon the state auditor's internal
. control reviews but instead determined that we could better meet our audit
  objectives by testing transactions.

 We reviewed compliance with laws and regulations as they applied to costs
 incurred, using as criteria OMB Circulars A-21, Cost Principles for Educational
 Institutions, and A-122, Cost Principles for Nonprofit Organizations, and 15 CFR,
 Part 14, Uniform Administrative Requirements for Grants and Agreements with
 Institutions ofHigher Education, Hospitals, Other Non-Profit, and Commercial
 Organizations. We also assessed compliance with the Department of Commerce
 Financial Assistance Standard Terms and Conditions, MEP General Terms and
 Conditions, and the cooperative agreement Special Award Conditions. We note
 instances of noncompliance with stated laws and regulations in thi::; report.

 We performe~ our fieldwork during May and June 2007, at UTA's offices in
 Arlington, Texas, and at subrecipient offices in College Station and San Antonio,
 Texas. We conducted this audit under the authority of the Inspector General Act of
 1978, as amended, and Department Orga nization Order 10-13, dated August 31,
 2006, and in accordance with generally accepted government auditing standards.

                                           14 

U.S. Department ofCommerce                               Fino/ Audit Report No. DEN- 18573 

Office ofInspector General                                                       June 2009 



Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained does provide a
reasonable basis for our findings and conclusions.




                                          15 

U.S. Department o_(Commerce                            Final Audit Report No. DEN-18573 

Office oflnspecwr General                                                      June 2009 



                                                                       APPENDIXB



                     UNIVERSITY OF TEXAS AT ARLINGTON 

               NIST COOPERATIVE AGREEMENT NO. 70NANB5H1005 

               SUMMARY OF SOURCE AND APPLICATION OF FUNDS 

                  SEPTEMBER 1, 2005 THROUGH MARCH 31, 2007 



                                     Approved                Receipts &
                                     Budget (a)             Expenses (b)

SOURCE OF FUNDS:

Federal                             $10,872,742            $ 6,595,798
Nonfederal                           21.748.938             14.530,466

Total                               $32.621.680            $21.126.265



APPLICATION OF FUNDS:

Personnel
Fringe Benefits
Travel ·
Equipment
Supplies
Contractual
Other
Indirect Costs

Total                                $32.62L680             $21.126.265

Notes:
(a) The approved budgeted costs are for the period of September 1, 2005, through
    August 31, 2007.                                            ·
(b) The receipts and expenses a·r e for the period of September 1, 2005, through
    March 31, 2007.




                                         16 

US. Department ofCommerce                                            Final Audit Rep01·tNo. DEN-18573 

Office of fn.'ipector General                                                                June 2009 



                                                                                     APPENDIXC

                      UNIVERSITY OF TEXAS AT ARLINGTON 

                NIST COOPERATIVE AGREEMENT NO. 70NANB5Hl005 

                   SUMMARY OF FINANCIAllCOMPLIANCE AUDIT 

                   SEPTEMBER 1, 2005 THROUGH MARCH 31, 2007 


                                                                   Results of Audit
                     Approved         Costs               Costs        Costs          Costs
Description          Budget (a)    Claimed (b)          Questioned Unsupported      Accepted

Personnel                                                        0                  0
Fringe Benefi                                                    0                  0
Travel                                                           0                  0
Equipment                                                        0                  0
Supplies                                            $       -(c)                    0
Contractual                                              1,533,055 (d)              0
Other                                                                (e)            0
Indirect Costs                                                       (fl             Q
Total         $32 621.680         $21.126.265           $1.619.280                   Q $19 506 985

Federal Funds Disbursed                                 $6,595,798
Costs Incurred             $21,126,265
Less Questioned Costs         1.619.280
Costs Accepted              19,506,985
Federal Cost Sharing Ratio x ·    33.33%
Federal Funds Earned                                     6.501,678

Refund Due the Government 	                             $   94.120

Notes:
(a) Approved budget is for September 1, 2005, through August 31, 2007.
(b) The costs claimed are for September 1, 2005, through March 31, 2007.
(c) 	Questioned supplies costs represent annual membership dues paid to the
     American Small Manufacturers Coalition that may be related to lobbying
     activities.
(d) Questioned contractual costs include (1) $1,271,827 claimed by subrecipient
     TEEX for costs reported by two of its subrecipients.that were not related to MEP
     activities, (2) -       in estimated costs claimed by subrecipient TEEX, and (3)
     $6,439 of excessive indirect costs claimed by subrecipient University of Texas El
     Paso.
(e) Questioned other direct costs reported by the University of Texas at Arlington
     are for conference-related charges that were also claimed by MEP subrecipients.
(fl 	Questioned indirect costs of~ are related to the -              in questioned
     supplies (lobbying) costs.
                                                 17 

                                                                                                          APPENDIX D 





    A

  THE UNIVERSITY            September 19, 2008
           Of TEXAS

   ATARUNGTON
                            Judith J. Gordon
                            Assistant Inspector General for Audit and Eva luation
   Office of Grant &
   Contract Services        United States Department of Commerce
                            Office of Inspector General
              Box 191'15
                            1401 Constitution Avenue, NW
2 E. Border St..Suite 216
                            Room 7876
         Arlington.Texas
                            Washington, DC 20230
             76019.()1<45

         T 817.272.2105     re:     Draft Audit Report No. OEN-18573-8-0001
         F 817.272.5808
                            Dear Ms. Gordon,

                            Please find attached The University of Texas' response t o the draft audit report of the
                            U.S. Department of Commerce fi nancial assistance Award No. 70NANBSH1005
                            sponsored by the National Institute of Standard s and Technology.
 &penile• w~
cr¢/wwww..edliexpettise

                            If you have any questions about our response or if we can provide you with additional
                            Information please contact me at (817)272- or erm:til Lfur!>IJer~(wutd.edu.


                            Sincerely,




                            Assistant Vice President for Research


                            cc:                      JohnS. Bunting, Regional Inspector General for Audits, US DoC


                            cc (w/o encl): 	         Joyce Brigham, Grants Offteer, Nl ~ l
                                                     Kenneth W . Schroeder, Director, Internal Audit, UT Arlington
                                                     Stephen Willet, NIST Audit Uaison
                                                     J. Michae 1 5i mp~on, Oir~;"rtnr, Sy«Pm OpP.rations, NIST/MEP
                                                     William Kinser, NIST Grants and Agreement Management
                                                     Division
                                 The University ofTexas at Arlington 

                       Response to DRAFT Audit Report No. DEN-18573-8-0001 



                                               INTRODUCTION 


The University ofTexas at Arlington (UTA) is pleased to submit the following response to the OIG
Draft Audit report on behalf of the Texas Manufacturing Assistance Center (TMAC).

The following response coincides with the format in the OIG Draft Audit report No. DEN-18573-8­
0001. The section and subsection headings match those found in the Draft Audit report in order
to easily reference exhibits and/or the evidence, explanation and response to the questioned
costs identified by the OIG.

SUBRECIPIENT QUESTIONED COSTS

1. 	 $1,271,827 in claims from the Texas Engineering Extension Service (TEEX) and two of
     its subrecipients the OlG determined were not allowable MEP project costs:

         TEEX has only one subrecipient, the Biotech Manufacturing Center of Texas (BMC).

         The Emergency Services Training Institute (ESTI) in and of itself is not a Subrecipient to
         the UTA Cooperative Agreement. ESTI is an institute within TEEX. TMAC Statewide, a
         TMAC regional center, is also an organization within TEEX. TEEX holds the Subrecipient
         Agreement to manage the TMAC Statewide Region. To better manage and review the
         participation of ESTI in TMAC, TMAC Statewide and ESTI have a Memorandum of
         Agreement as a TEEX internal Agreement. To illustrate the TMAC network of
         Subrecipients please refer to the TMAC Subrecipient Schematic as Exhibit 1.

         The responses for these questioned costs are partitioned as follows and build upon each
         other in their respective order:

                    A) Allowability of costs and relevant federal regulations for their determination

                    B) The programmatic intenUreasonableness of costs communicated from the
                    Federal government

                    C) The rationale for including ESTI and BMC in TMAC

                    D) The evaluation, effectiveness and results of the TMAC Partnership

                    E) The Monitoring, Accountability and Oversight of Subrecipients

                    F) Other Programmatic Responses

                    G) Summary Response

         Al Allowability of Cost and Federal Regulations: 

         The applicable federal policy to determine allowability of cost under this Cooperative 

         Agreement is Title 2, Volume 1 Part 220 Cost Principles for Educational Institutions, 

         (hereinafter 2CFR220) see http :1/edocket.access.gpo .gov/cfr_2008/janqtr/2cfr220 .5.htm. 

         When applying these principles, there is an important exchange of documentation and 



UTA Response to Dtaft Audit Report No. DEN-18573                                               Page: 1
September 19,2008
         communication between the federal sponsoring agency (NIST) and the performing
         agencies (TMAC Partners) to implement the intent of the federal program (MEP) and
         incur the appropriate costs to execute it. For example, under Section A of 2CFR220;
         "Purpose and scopeD, Section 2. "Policy guides" , states the following (emphasis added):

                   "The successful application of these cost accounting principles requires
                   development of mutual understanding between representatives of universities
                   and of the Federal Government as to their scope, implementation, and
                   interpretation. It is recognized that ... arrangements for Federal agency and
                   institutional participation in the financing of a research, trai'ning, or other project
                   are properly subject to negotiation between the agency and the institution
                   concerned, in accordance with such government wide criteria or legal
                   requirements as may be applicable. n

                   The mutual understanding between TMAC and NIST is communicated through
                   the Proposal,. Approved Operating Plans, Panel Reviews, NIST Strategic Plan,
                   Federal Government Guidance, NIST MEP Source for Centers, Policies, Notices
                   etc., all of which are further expanded on in subsection B) of this section.

                   The OIG report questioned whether the costs reported by BMC and EST I are
                   allowable MEP costs because "they were associated with services the [BMC and
                   ESTI] were already providing and would have continued to provide had there
                   been no association with the MEP .." Because a partner offers services that they
                   were already providing and would continue to provide does not mean the costs
                   are unallowable. NIST MEP encourages the leveraging of resources through
                   partnerships. If the partners were required to develop different services in order
                   to participate in the MEP, then there would be no leveraging. While the OIG
                   Report questions the costs, there is no reference to a violation of 2CFR220.

                   To determine the specific "allowability" of costs TMAC referred to 2CFR220 Part
                   C "Basic considerations", items 2 and 3 (emphasis added):

                    "2. Factors affecting allowability of costs. The tests of allowability of costs under
                    these principles are: (a) they must be reasonable; (b) they must be allocable to
                    sponsored agreements under the principles and methods provided herein; (c)
                    they must be given consistent treatment through application of those generally
                    accepted accounting principles appropriate to the circumstances and (d) they
                    must conform to any limitations or exclusions set forth in these principles or in the
                    sponsored agreement as to types or amounts of cost items."

                    We have met all of the factors mentioned above for determining allowability.
                    However, in the exit interview; the OIG did mention "reasonableness" as it related
                    to the inclusion of these partners in TMAC, which is expanded on in the
                    information below.

                    2CFR220 Continued: "3. Reasonable costs. A cost may be considered
                    reasonable if the nature of the goods or services acquired or applied, and the
                    amount involved therefore, reflects the action that a prudent person would have
                    taken under the circumstances prevailing at the time the decision to incur the
                    cost was made.•

                    The decision to include the BMC and ESTI costs do reflect an action that a
                    prudent person would have taken under the circumstances at the time. The
                    General Terms and Conditions for the Hollings Manufacturing Extension


UTA Response to Draft Audit Report No_ DEN-I &573
September 19,2008
                                                                                                   Page: 2
                   Partnership Statement of Work states: "The tasks to be performed by the
                   Recipient under this award are detailed in the original proposal as amended by
                   the required plans. During the period, if any modifications are required to the
                   statement of work or plans, these modifications must be submitted in writing and
                   are not effective until approved by the NIST Grants Officer in writing. These
                   modifications will be incorporated as an amendment to the cooperative
                   agreement." In Grant Year 12 BMC and ESTI were in the NIST approved
                   Operating Plan. In Grant Year 11, BMC was referenced in TMAC-Statewide's
                   statement of work and incorporated into amendment number 3 to their
                   Subrecipient Agreement after extensive consultation with NIST MEP.
                   Furthermore, MEP did conduct appropriate program reviews during which these
                   programs were discussed. Therefore, TMAC believes there was ample
                   communications with NIST MEP, and the Program Officer/Account Manager
                   were aware of actions planned and undertaken. Based on these circumstances,
                   including the BMC and ESTI costs reflect what a prudent person would do and
                   therefore should be considered reasonable.

                   2CFR220 Continued: "Major considerations involved in the determination of the
                   reasonableness of a cost are: (a) whether or not the cost is of a type generally
                   recognized as necessary for the operation of the institution or the performance of
                   the sponsored agreement; (b) the restraints or requirements imposed bv such
                   factors as arm's length bargaining, Federal and State laws and regulations. and
                   sponsored agreement terms and conditions; (c) whether or not the individuals
                   concerned acted with due prudence in the circumstances. considering their
                   responsibilities to the institution. its employees. its students. the Federal
                   Government, and the public at large; ... •

         These subrecipient costs are recognized as necessary for the performance of the NIST
         Cooperative Agreement as evidenced in subsection B of this section. These costs are
         reasonable as they were incurred with due prudence and diligence for the circumstances
         and communication received from NIST, and were further validated in program reviews.

         It is important to recognize the Cost Principles applicable to this program do not
         necessarily take into account the outcome or resulting value that may eventually occur
         when establishing allowability of costs. The results of a grant or federal assistance
         project may not be easily known and often are difficult to predict. The pursuit of
         relationships/collaborations and the intent to fulfill programmatic requirements or the
         conduct of program activities are executed by meeting the initial requirements described
         above to determine allowability. The effectiveness of these efforts and resulting
         outcomes are a matter of programmatic determination. Evaluation, monitoring and
         accountability of performing agencies and the mechanisms by which to analyze them
         help determine due diligence in order to alter the course of a program should federal
         funds need to be diverted to other program goals. Indifferent to the actual outcome, the
         costs are allowable when initiating the relationship in accordance with the applicable cost
         principles.

         B) Programmatic Intent of the MEP communicated by the Federal Government:
         There are numerous examples of the programmatic intent of the MEP communicated by
         the federal government and the federal sponsoring agency to the public and participating
         institutions that are used to establish the "mutual understanding" between TMAC and
         NIST as to the application of the cost accounting principles' "scope, implementation and
         interpretation" and, therefore, determine the allowability and reasonableness of costs as
         described in subsection A above.




UTA Response to Draft Audit Report No. DEN-18573                                            Page: 3
September 19,2008
         Some of the examples NIST. Department of Commerce, and Congress have provided to
         the public to communicate the intent and therefore allowability (programmatic
         reasonableness} of costs are as follows (emphasis added}:

                    The NIST MEP Statue: TITLE 15- COMMERCE AND TRADE
                    CHAPTER 7- NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
                    Sec. 278k. Regional Centers for the Transfer of Manufacturing Technology
                    States " ...the Objective of the Centers is to enhance productivity and
                    technological performance in United States manufacturing through ...

                             2.       the participation of individuals from industry, universities, State
                             governments, other Federal agencies, and, when appropriate, the
                             Institute in cooperative technology transfer activities;
                             3.       efforts to make new manufacturing technology and processes
                             usable by United States- based small- and medium-sized companies;
                             4.       the active dissemination of scientific. engineering. technical. and
                             management information about manufacturing to industrial firms.
                             including small- and medium-sized manufacturing companies; and ... "

                    The CFDA# 11.611, www.cfda.gov (MEP} description states the "Objective" as:

                             "To establish, maintain. and support manufacturing extension centers
                             and services. the functions of which are to improve the competitiveness
                             of firms accelerating the usage of appropriate manufacturing technology
                             by smaller U.S. based manufacturing firms, and partner with the States
                             in developing such technical assistance programs and services for their
                             manufacturing base."

                             And under Uses and Use Restrictions: "Federal funding provided under
                             this program shall be used for the creation and support of manufacturing
                             extension services. or used by the States to plan for and pilot test state­
                             wide extension services. It may also be used to plan for and pilot test
                             services within a multi-state region which has sufficient regional linkages
                             to justify such services. Extension service providers shall be affiliated
                             with a U.S. based nonprofit institution or organization or group thereof.
                             Funds may be used for the purpose of demonstrations, technology
                             deployment, active transfer and dissemination of research findings and
                             extension service expertise to a wide range of companies and
                             enterprises. especially small manufacturers with fewer than 500
                             employees."

                    The NIST- MEP website: www.mep.nist.gov/partners/index.htm : it further
                    clarifies the intent of the program as follows:

                             "MEP's strength is in its partnerships. Rather than creating products.
                             services. and programs from scratch. MEP works with partners to
                             leverage resources and bring those resources to manufacturing clients.
                             The MEP nationwide network, with its direct reach to the nation's
                             manufacturers, has proven to be invaluable to numerous federal
                             government partners who utilize the network to distribute valuable,
                             cutting-edge lnfonnation and resources in areas of workforce,
                             technology adoption, environment and energy, quality, and more.

                             In addition, using partnerships, MEP leverages the federal


UTA Response to Draft Audit Report No. DEN-18573
Septeml= !9, 2008
                                                                                                Page:4
                             government's investment in other programs through awareness,
                             education, collaboration and implementation.

                             Creatively using existing resources and partnering to extend them
                             through the MEP network to the nation's manufacturers puts MEP in a
                             unique position to help the nation's manufacturers access
                             invaluable resources that might otherwise have gone unknown and
                             unutilized. "

                   The America Competes Act, Public Law 110-69, Sec 3003 (a} CLARIFICATION
                   OF ELIGIBLE CONTRIBUTIONS IN CONNECTION WITH REGIONAL
                   CENTERS RESPONSIBLE FOR IMPLEMENTING THE OBJECTIVES OF THE
                   PROGRAM, {C) states:

                             •... it is anticipated that a Center will enter into agreements with other
                             entities such as private industry, universities, and State governments to
                             accomplish programmatic objectives and access new and existing
                             resources that will further the impact of the Federal investment made on
                             behalf of small- and medium- sized companies. All non-Federal costs,
                             contributed by such entities and determined by a Center as
                             programmatically reasonable and allocable under MEP program
                             procedures are includable as a portion of the Center's contribution."

                             The Center Director, in concert with the NIST MEP Program Office as
                             evidenced in the approl.'ed Operating Plan and Cooperative Agreement,
                             has determined BMC and ESTI as programmatically reasonable and
                             allocable to the MEP program and is included as a portion to the
                             Center's contribution.

                    The CFR Part 290- Regional Centers for the Transfer of Manufacturing
                    Technology, Subchapter K- Advanced Technology Program Procedures states
                    (emphasis added):

                              "§ 290.3 Program Description.
                              {d) Center organization and operation.
                              Each Center will be organized to transfer advanced manufacturing
                              technology to small and medium sized manufacturers located in its
                              service region. Reaional Centers will be established and operated via
                              cooperative agreements between NIST and the award-receiving
                              organizations. Individual awards shall be decided on the basis of merit
                              review. geographical diversity, and the availability of funding.

                    The 1992 MEP NIST report "A National Strategy for Manufacturing Excellence"
                    (a report requested by the NIST VCAT in 1991, and presented to the NIST VCAT in 1992. The report
                    was strongly endorsed in the 1993 Annual Report of the VCA T} states:

                              "The Partnership is not hierarchically-organized, and it is not exclusive.
                              Its strength is based on linking a widely-diverse and evolving collection of
                              entities, some of which are funded and directly assisted by NIST and
                              others which originate locally or with other Federal or state agencies. It is
                              built on state and local understanding of the needs of the manufacturers,
                              and on the creative energy of the individual organizations that make up
                              the network."




liTA Response to Draft Audit Report No. OEN-18573                                                        Page: 5
September 19,2008
                  The MEP Guiding Values include "Leveraging all available resources.n We
                  believe that investments in infrastructure, new product development, and market
                  research should be continuously leveraged across the system in order to
                  enhance the services to all manufacturers. Furthermore, we believe that the
                  effective partnerships with existing national, state, and local resources, as well as
                  private sector organizations, allows for the most efficient and effective delivery of
                  services to manufacturers. Clearly, in applying the cost principals to determine
                  allowability of costs, NIST has communicated the intent of the MEP to leverage
                  existing resources and services and the costs reasonably associated with
                  executing the MEP. BMC and ESTI are examples of leveraged resources to
                  serve manufactures in the TMAC network. These partnerships accomplish what
                  NIST MEP desires. They leverage investments in infrastructure and product
                  development. They are partnerships with existing state and private sector
                  organizations, existing state agencies, and BMC a not for profit.

         C) The rationale for including ESTI and BMC in TMAC:

         For the specific questioned costs associated with BMC and ESTI, it is important to
         recognize the invaluable extension services they uniquely provide to the TMAC
         partnership that are in-line with the MEP program intent described above.

         BMC Background: The Biotech Manufacturing Center (BMC) was formed as a non­
         profit entity in 2004 with partial funding from the local economic development center in
         Athens, Texas to utilize abandoned medical facilities. These facilities were available
         because a large medical manufacturer left town. This action meant that valuable medical
         jobs were lost in the comm'unity and the state.

         As with any fledgling non-profit entity, BMC struggled to remain financially solvent while
         building up its capabilities and identifying start-up medical customers to utilize its services
         in product design, prototyping, and pilot production. In fact, the local economic
         development center on several occasions considered ceasing support and funding
         feeling the financial burden was too much for the local community to absorb. In early
         2006 TMAC recognized the value that BMC offered not only to the small manufacturing
         community in Athens, but also to companies all over Texas. TMAC approached BMC
         and the local community to develop a viable partnership. By leveraging TMAC and the
         local community, BMC was able to focus on additional business development activities to
         attract new customers and tenants to the facility. This partnership allowed TMAC to align
         with NIST's Next Generation Strategic Plan (v.1. 12123/05) by adding innovation services
         including product development capability. In-tum, BMC gained access to full suite of
         TMAC services. This value exchange brought new offerings including not only the
         cutting-edge information on technology adoption, environment and energy, but also
         manufacturing ISO certification, and assistance in FDA approval in the only FDA
         registered support facility in the state of Texas.

         A TMAC Success Story: An example of this model and a significant success story is
         the first tenant and graduate of the BMC, Pharma-Pen, a company that had patented an
         innovative auto-injection device. Not only did Pharma-Pen utilize the facilities at BMC,
         but owner Rick Gillespie utilized a market assessment performed by TMAC-Statewide
         that helped identify market opportunities and assisted in his business plan that attracted
         seed funding for his company. Mr. Gillespie provided a BMC-Pharma-Pem Summary
         attached as Exhibit 2 that states in part:

        "TMAC helped put together an assessment that was a major part of my first business plan
        I put together, u Gillespie said. "That plan was used essentially to attract my first round of
        seed investors that really got this initiative off the ground. u


UTA Response to Dmft Audit Report No. DEN-18573                                               Page:6
September 19,2008
         As a result of the many services provided by BMC and TMAC-Statewide to Pharma-Pen
         during this design and prototyping phase, Galespie and his investors partnered with an
         established pharmaceutical company, West Pharmaceutical, to market and produce the
         auto injector device. During West Pharmaceutical's tour of the BMC facilities to evaluate
         Pharma-Pen, they were so impressed with the facility and the support of the center that
         they not only agreed to keep operations and manufacturing of the auto injector in Athens,
         but they also decided to relocate other out of state jobs to Athens. and plan to add
         additional jobs in Athens in the next several years. Overall, the short term economic •
         impact was estimated conservatively at just under $1.0 million. That ftgure will continue to
         grow as the facility operates in Athens and attracts additional high paying medical
         manufacturing jobs as planned in rural east Texas.

         Coming directly from R ick Gillespie at Pharma-Pen, this success story would not have
         happened in Texas without the support of the BMC and the MEP. Exhibit 2 continued:

         "BMC provided me the facilities. infrastructure, and support that as a start-up company I
         didn't have. They have a one-of-a-kind medical device manufacturing facility that's FDA
         approved, " Gillespie said. "They certainly accelerated the development process, and we
         wouldn't be doing this in Athens       or
                                             Texas if this facl1ity wasn~ available."

         As a result of BMC and the support of the MEP, the small. rural city of Athens regained
         high dollar, high quality medical manufacturing jobs by utilizing an abandoned medical
         manufacturing fac~ity. The state of Texas now has a unique facility in the region that can
         attract medical device start-up companies and grows the medical manufacturing base by
         increasing the probability of commecclal success by offering MEP set"Vices and leveraging
         the MEP network. Exhibit 2 continued:

         "This acquisition provides approximately 15 jobs her~ in Athens and West is expected to
         have up to 30 employees within a year or two, depending on the assistance given by the
         BMC. TMAC, and the city of Athens, • said Gary San Miguel, executive director of BMC."

         The success of BMC In the TMAC partnership: After joining TMAC as a subrecipient in
         January 2006 in Grant Year 11, BMC's total reported program Income was . . - .
         In Grant Year 12 their reported program income had grown to~. This revenue
         growth is only one example of how. the program nas expanded ~of this
         partnership. Moreover, Texas now has an FDA registered medical device incubation
         f acility to attract medical device innovators and start-up companies. BMC and the
         importance of the TMAC partnership is reflected in a letter (see Exhibit 3) submitted from
         Executive Director Gary San Miguel in October,.2007 when he wrote:

             · our relationship with TMAC is a cnticallink in our growing success. Funding from
               TMAC has proven instrumental In the growth and expansion of services offered by
               BMC to support small and start-up companies In the design, development,
               prototyping, and pilot productions runs of new medical device innovations in the
               commercialization process. The impact can be seen in several critical financial and
               operational milestones.

              In terms of total companles served, BMC's client list has increased significantly since
              partnering with TMAC. Since our partnership with TMAC in January 2006, 18
              additional new clients have been ~rved and our projects supporting small
              manufactur~s have increased.%.

              Support services and associated revenues of BMC have almost tripled since the
              inception of the TMACIBMC partnership."



UTA Response to Draft Aud.it Report No. DEN-18573                                           Page:?
Septc:mba' 19, 2008
               In conclusion, Mr: San Miguel reiterated the importance of the TMAC partnership to
               the financial viability and success of the BMC, and in turn the success of its start-up
               manufacturing tenants. (Exhibit 3 continued}:

               "Without TMAC, our success would be sharply curtailed... We have completed
               several major projects with economic impact of 5.2 million dollars.. . In conclusion, we
               are a non-profit entity struggling to survive as any other new company. Due to our
               uniqueness of incubat.ing new companies, TMAC not only offers financial support that
               allows us to acquire key technical personnel, TMAC also offers services such as
               sales, marketing, ISO implementation, lean manufacturing to name a few that prove
               instrumental in new companies development. The goal of the BMC, With the valuable
               partnership of TMAC, is to assist manufacturing companies. That is what we do. •

        Summary: In reference to the audit report's claim that BMC and ESTI could only recall
        referring three customers for additional services, we wish to clarify the following points:
        First, TMAC-Statewide and BMC marketed and referred TMAC to many potential
        customers through multiple interactions and the use of marketing materials. However,
        their utilization is difficult gauge and record through the use of referral reporting. TMAC
        provided additional MEP services to three BMC customers. The three BMC customers
        and the MEP services provided during the audit period are as follows:
                    1) TMAC performed a market assessment for Pharma-Pen in support of their
         business plan.
                    2) TMAC generated a market opportunity study for                          a BMC
         client looking to validate market opportunities for its self-adjusting door lock that was
         being designed and prototyped at BMC. TMAC provided market intelligence and insight
         into the construction and locksmith industry, including specifiC distributors and
         manufacturers of locks that were potentially interested in partnering with the client
                    3) TMAC performed a feasibility study for another BMC customer (reql!ested
         their name not be disclosed publically) that was prototyping a misting device. TMAC
         generated industry feedback on the device and identified potential commercial
         opportunities and strategies used in the client's strategic and business plan.

        TMAC-Statewide and BMC actively marketed the services of each organization jointly.
        TEEX marketed the services of BMC at several state universities that produce medical
        device innovations including Texas A&M University, Texas Tech University, UT-Arlington,
        and UT-San Antonio, and BMC was active in educating its tenants about additional
        TMACIMEP services and actively marketed its partnership with TMAC at various
        conferences, meetings, and on its website.

        ESTI Background: With respect to the Emergency Services Training Institute (ESTI) at
        TEEX, ESTI has been provided training and technical assistance to Texas industries since
        the Summer of 2006 under its current agreement with TMAC-Statewide. ESTI's services
        are designed to prepare emergency response personnel to safely, effiCiently, and
        effectively perform rescues in the event of an emergency. The training and technical
        assista~ that is offered enables manufacturing personnel to apply newly acquired skHis
        and knowledge in a real-world hazardous environment There is no doubt the customers
        that participated in the TMAC program and received training benefited greatly in their
        abUities to protect themselves, co-workers, the environment, their communities and their
        livelihoods. The impact is particularly strong when you consider the value that small to
        medium-sized manufacturers receive from such training.


UTA Response to Onlfl Audit Rqlort No. DEN-18573                                               Page:8
September 19, 2008
        One of the most important goals is to increase the availability of safety and emergency
        response training that can save lives of manufacturing employees. It is critical that
        emergency responders in the state of Texas receive training that ~nables them to respond
        safely and effectively to crisis situations. thus reducing the impact felt to company both in
        lives and in company assets. By limiting losses. these Texas companies can experience
        more on-time production and continue to operate without loss of jobs or capacity,
        stabilizing the Texas manufacturing community. Participating companies obtained training
        that is directly related to performance objectives which improve their ability to retain
        current operations and market share in the United States and reduces the risk of the
        company moving its manufacturing operations to cheaper overseas locations.

        A prime example of a customer served in the TMAC
        their facility would be
        large fire in their                                 response
        team was exceptional. They exhibited great poise under this               situation and saved
        their company millions of dollars. Without training that - received at ESTI, none of
        these results could have been possible. There is no insurance poficy like a well trained
        response team. - - - took the approach to go the extra mile for their team
        and not just to pr~um training to meet the OSHA mandated level, and it
        paid off in protecting the lives of their employees and saving millions in assets and
        protecting the company's ability to operate and stay in business.
        As a side note, some of the trainers that instruct for ESTI were part of the search and
        rescue team that was deployed during Hurricane Ike. Dealing with hurricanes is only one
        example of a crisis situation.
        ESTI works in an environment of cost avoidance, but avoiding costs and minimizing
        damage in an emergency situation is a positive economic benefit because it can keep the
        company in business and maintains the manufacturing base. The significant resources
        EST! provides to this partnership include technical expertise, equipment, an established
        training capability, and an existing customer base that augments that of TMAC.

        The capabilities that the TMAC/ESTI partnership can offer are especially important to the
        small to medium sized manufacturing companies. These companies liave less room for
        error and a fire or other emergency event can impact their ability to stay in business, thus
        compromising the Texas manufacturing job market. These companies must ask
        themselves; "wauld the services that TMAC/ESTI provides Improve the companies'
        position in the market place and provide a competitive advantage"? This is a fact of doing
        business as these companies are mandated by OSHA regulations to train their personnel
        in emergency response, but more importantly companies that do this well tend to stay in
        business.

        Through the TMAC/ESTI partnership, we look to attract new and unique customers who
        will benefit from the services that we provide. More importantly, we look for small to
        medium-sized companies that can realize the greatest impact from emergency response
        training. ESTI was also.able to provide training to a group of small and medium-sized
        companies that would not likely have been serviced without TMAC assistance. These
        new companies were exposed to training which will no doubt Increase their abYity to
        respond to emergencies and prevent loss of life, reduce damage to equipment, reduce




        - -
        extended downtime and increase their                     in the Texas            These
        companies include                                                                      and


        The MEP program is founded on the principle of leveraging existing technical assistance
        capacity that builds infrastructure to assist small and medium manufacturers. 1lle fact that
        ESTI had pre existing capabiities of serving manufacturers is exactly the kind of
        leveraging the MEP program is referring to above. The additional federal dollars allows


UTA Response to Draft Audit Report No. DEN-18573                                             Page:9
September 19, 2008
        ESTI to expand their ability to serve manufacturers with a focus on small and medium
        sized manufacturers.

        In reference to the claim by the OIG that TEEX could only recall referring three potential
        customers for additional TMAC services, the ESTI program manager of the private sector
        group, Gordon Lohmeyer personally and directly met with each and every TMAC customer
        and counseled the client on TMAC, handed out a customized joint ESTI-TMAC brochure
        that spelled out the services of both (see Exhibit 4), and then briefly reviewed the TMAC
        surveying process.

        In addition, Mr. Lohmeyer and his team distributed hundreds of ESTI-TMAC brochures at
        exhibits and various fire and emergency services trade shows and conferences. The
        following conferences occurred during the audit period where TMAC services were
        marketed and displayed:

        Texas-based conferences which we attended and actively marketed TMAC:
         1) October 24- 29, 2006 - EPA Region 6 Hot Zone Conference (Houston, Tx)
         2) February 13- 16, 2007- Industrial Fire Safety and Security (Galveston, Tx)
         3) March 27-28, 2007 -Industrial Fire World (Beaumont, Tx)

         AFTER AUDIT PERIOD 


         4) May 1 -3, 2007- National Petroleum Refiners Association (Woodlands, Tx) 

         5) June 4-7, 2007 Texas Chemistry Council (Moody Gardens- Galveston, Tx) 

         6) July 22, 2007TEEX/ESTI Annual Municipal Show and Expo (CollegeStation, Tx) 

         7) October 16-21,2007 EPA Region 6 Hot Zone Conference (Houston, Tx) 

         8) February 4-8, 2008 Industrial Fire Safety and Security (Galveston, Tx) 

         9) February 10-12, 2008 South West Fire and Rescue (Moody Gardens- Galveston, Tx) 


         To summarize, not only do the BMC and ESTI add value to the MEP program; they also 

         add capability and capacity that is critical for manufacturers that is very hard to access 

         elsewhere. With regard to BMC, a new product can take up to 10 years to launch, the 

         impact of the BMC's efforts will not be fully realized for several years. The 

         discontinuance of MEP support of BMC and ESTI will cause TMAC to lose capabilities 

         and reduce services grounded in business strategy development, market expansion, new 

         product development, integration into supply chains and engaging the creativity and 

         technical problem solving skills of the workforce that NIST places emphasis in fulfilling for 

         the intent of the MEP. Without BMC the state and nation will lose additional capacity to 

         develop products. By lever-aging MEP service providers, TMAC increases in recognition, 

         marketing outreach, and builds internal capacity to the entire program. BMC and ESTI 

         offer unique services that all TMAC Centers can direct customers to as services not 

         offered in their respective regions. Lastly, TEEX (TMAC Statewide), BMC and ESTI are 

         resources serving an underrepresented rural area in TMAC that requires the necessary 

         financial incentives to provide MEP related services that otherwise are unsustainable by 

         the market place. 


          D) The establishment, evaluation, effectiveness and results of the TMAC 

          Partnership: 


          To further solidify the mutual understanding of the MEP guidance provided to TMAC and 

          the allowability to establish partnerships and the leveraging of existing resources in 

          accordance to applicable federal costing policies, TMAC has communicated the inclusion 

          and rationale for BMC and ESTI to NIST. It is an ongoing communication and post 

          review process to ensure the reasonableness and allowability of costs incurred and that 

          proper partnerships are maintained. Examples of the evaluation, validation, and 

          programmatic results communicated with NIST are as follows: 



UTA Response to Draft Audit Report No. DEN-18573                                             Page: 10
September 19,2008
                    TMAC Integrated Business Plan Grant Year 12:

                            Innovation Goal: "Provide Engineering and design prototyping services
                    for companies needing to test, market, and prove out their new product ideas
                    through our subcrecipient agreement with the Biotech Manufacturing Center
                    (BMC) in Athens, TX" (Page 40, Critical Success Factor 8).

                            Sustainability Goal: "Provide training and technical assistance
                    improving the safety and security of the Texas-based petrochemical, power
                    generation, pharmaceutical, transportation, and manufacturing industries through
                    a partnership with EST!." (Page 44, Critical Success Factor 9).

                    The CFR Part 290- Regional Centers for the Transfer of Manufacturing
                    Technology, Subchapter K- Advanced Technology Program Procedures states
                    (emphasis added):

                              § 290.8 Reviews of centers.
                              (a) Overview. Each Center will be reviewed at least annually, and at the
                              end of its third year of operation according to the procedures and criteria
                              set out below. There will be regular management interaction with NIST
                              and the other Centers for the purpose of evaluation and program
                              shaping. Centers are encouraged to try new approaches, must
                              evaluate their effectiveness, and abandon or adjust those which do
                              not have the desired impact. (b) Annual reviews of centers. Centers
                              will be reviewed annually as part of the funding renewal process using
                              the criteria set out in§ 290.8(d). The funding level at which a Center is
                              renewed is contingent upon a positive program evaluation and will
                              depend upon the availability of federal funds and on the Center's ability
                              to obtain suitable match, as well as on the budgetary requirements of its
                              proposed program. ... ."

                              (c) Third year review of centers. Each host receiving a Center Operating
                              Award under these procedures shall be evaluated during its third year of
                              operation by a Merit Review Panel appointed by the Secretary of
                              Commerce. Each such Merit Review Panel shall be composed of private
                              experts. none of whom shall be connected with the involved Center. and
                              Federal officials. (establishment of •reasonableness") An official of NIST
                              shall chair the panel. ... (d) Criteria for annual and third year reviews.
                              Centers will be evaluated under the following criteria in each of the
                              annual reviews, as well as the third year review: (1) The program
                              objectives specified in § 290.3(b) of these procedures; (2} Funds­
                              matching performance; (3} The extent to which the target firms have
                              successfully implemented recently develo~d or currently developed
                              advanced manufacturing technology and techniques transferred by the
                              Center; (4} The extent to which successes are properly documented and
                              there has been further leveraging or use of a particular advanced
                              manufacturing technology or process; (5) The degree to which there is
                              successful operation of a network. or technology delivery mechanism.
                              involving the sharing or dissemination of information related to
                              manufacturing technologies among industry, universities. nonprofit
                              economic development organizations and state governments .... n

                    The 2005 Panel Review was conducted to evaluate the performance and
                    effectiveness of TMAC to NIST. The 2005 Panel Review states:



liTA Response to Draft Audit Report No. DEN-18573
September 19,2008
                                                                                                Page: 11
                             "The Panel observed positive trends in the Center's performance
                             metrics, specifically in the area of cost per impacted client. The Panel
                             noted that this was a significant accomplishment while building a network
                             of partnerships and allowing the Center to become more visible and
                             active at the State leadership levels. This strong alignment of
                             institutional partners might offer great potential for alternative means for
                             State funding in the future. The Panel congratulates the Center on these
                             achievements and encourages such further efforts iri the future."

                             The Panel recognized the importance of leveraging a wide network of
                             TMAC partners.

                   The 2007 Panel Review again commended TMAC for work with our
                   partnerships. The report states:

                             "The Panel is impressed with TMAC's network of partnerships. The
                             Panel commends TMAC for bringing together a far reaching and
                             complex network of universities and community colleges, the
                             Manufacturing Caucus, and Federal agencies such as the Environmental
                             Protection Agency and Department of Labor. The Panel is impressed
                             that the Center has been able to develop and utilize the network at
                             multiple levels to accomplish desired strategic outcomes."

                             TMAC works to leverage our products offerings and technology through
                             partnerships.

                   BMC and ESTI's Inclusion in TMAC: BMC and ESTI were included via an
                   amendment to the TMAC-Statewide's Subrecipient Agreement in Grant Year 11
                   and included in the annual continuation proposal submitted to and approved by
                   NIST in Grant Year 12. The Panel Review communication between NIST and
                   TMAC helps to evaluate the effectiveness of TMAC (including EST I and BMC)
                   and the use of federal funds.

                   BMC and ESTI Initiated Projects:

                             •    TMAC-Statewide initiated a total of 61 projects in Grant Year 12
                                  which included 21 ESTI projects and 14 BMC projects.
                             •    TMAC-Statewide initiated a total of 56 projects In Grant Year 13
                                  which included 21 ESTI projects and 28 BMC projects.

                   These figures show the significant contributions of BMC and ESTI and in
                   particular the growth and expansion of services for BMC towards meeting the
                   goals of the MEP.

                   All of these Projects will be in the NIST Survey pipeline for TMAC. Upon
                   completion, TMAC customers will have the opportunity to quantify the impact of
                   TMAC services. We will continue to monitor results of these TMAC Partners as
                   they progress.

                   BMC is on track for its customers to demonstrate the impact of MEP-supported
                   services. Initial projects were begun in 2006. Because BMC's product
                   development projects are typically long and complex, the first of these projects
                   were completed in 2007. NIST's current survey cycle calls for gauging project
                   impact one year after completion, so the initial BMC customers would be


UTA Response to Draft Audit Report No. DEN-18573
September 19,2008
                                                                                                Page: 12
                   surveyed no earlier than 2008. In fact, seven BMC customers are scheduled for
                   inclusion in the upcoming 200803 survey, to be conducted in October­
                   November. These customers received an average of 1600 hours of service from
                   BMC. UTA will monitor the survey results to assess the impact of BMC on the
                   companies it has served.

                   ESTI's MEP-retated services may be difficult to quantify in terms of value
                   because its services are aimed at assisting manufactures minimizing loses due
                   to safety, emergencies, or disaster recovery/prevention. The value of these
                   services may only be evident after a disaster. With multiple avenues of outreach
                   and marketing, it is often difficult to connect a project opportunity with the
                   marketing effort that generated it

                   Plan for ESTI: In accordance to CFR § 290.8, regions are encouraged to try
                   new approaches. TMAC evaluates their effectiveness and makes adjustments
                   accordingly to achieve the desired impact TMAC-Statewide continues to expand
                   ESTI services related to MEP goals to improve impact As part of programmatic
                   performance and the process of continuous improvement, ESTI plans to reach
                   out to additional TMAC customers and assist them in meeting their regulatory
                   required training objectives. This will help ensure that TMAC participating
                   companies have advantages to remain competitive and deal with or reduce risks
                   brought on by natural or other disasters in today's environment

                   The plan to increase services and quality of training offerings that these
                   customers can expect to receive includes:

                         1. 	 Increased potential to market our abilities and services available to
                              small and medium-sized customers. The increased awareness and
                              participation in services that are available will improve their position in
                              the market place and handle cost avoidance issues.

                         2. 	 Increased class offerings to participating manufacturers that focus on
                              specialized needs for their particular facility. By offering "customized"
                              training, these companies can better prepare themselves for emergency
                              events which could negatively impact their ability to produce
                              commodities for their customers.       ·

                          3. 	 Expansion of curriculum to offer "special hazards" training that many
                               Texas based companies could benefit from. This will include such
                              ·courses as Flammable liquid Storage, LPG Emergency Management,
                               and Advanced Hazmat Container Specialist.

                          4. 	 Expansion, refurbishing and enhancement of the training props at
                               Brayton Fire Field. This will allow the emergency responders from the
                               state to have absolutely the best, most realistic training environment
                               possible.

                          5. 	 Purchase of training equipment which would allow us to better serve our
                               customers by providing the newest, most up to date tools available.

          In summary, the full potential value of BMC and ESTI may take time to be realized in
          quantifiable terms; however their establishment is allowable, their leveraging value has
          been realized and continues to be reviewed. Most importantly TMAC partners, BMC and
          ESTI, are examples of leveraged resources the MEP strongly encourages to meet the
          goals of the MEP.



UTA Response to Draft Audit Report No. DEN-18573
September 19, 2008
                                                                                                 Page: 13
         E) The Monitoring, Accountability and Oversight of Subrecipients:

         The monitoring of subrecipients is necessary in order to effectively implement the MEP
         program through TMAC. As the Prime Agreement holder, UTA exercises ongoing
         oversight and training for its Subrecipients related to compliance with MEP and Federal
         requirements. Elements of the process include the Subrecipient Agreement itself,
         monthly follow up on Requests for Reimbursement, monthly operations committee
         meetings, annual financial managers meetings, grants management training
         opportunities and a detailed Monitoring Plan.

         The Monitoring Plan was developed and implemented by UTA staff in the Offices of
         Grant and Contract Services, Internal Audit, and Institutional Compliance who is
         independent of the TMAC program management.

         To develop the Monitoring Plan, UTA performed a risk assessment that consisted of the
         review of regulatory requirements within the MEP Audit Guide, DOC and MEP Terms &
         Conditions and applicable Federal Regulations and Cost Principles. These items were
         compared to the associated risks inherent in managing a multiple subrecipient network of
         entities that constitute the TMAC - MEP partnership. The result of this risk assessment
         was a comprehensive monitoring check list (Exhibit 5) that included a review of financial,
         programmatic and administrative items and was utilized in a monitoring site visit at TEEX.

         UTA through this monitoring plan and site visit was able to view processes, review
         documentation, make observations and issue recommendations in order to mitigate risks
         within TEEX {Exhibit 6) UTA and TEEX Monitoring Report). In-turn, because of the
         proper agreements TEEX has with their partners, TEEX was able to review and monitor
         their subrecipient BMC and the EST! program (as evidenced in benefit correction 5b). It
         is important to note and recognize this process as it relates to the entire applicability of
         costs within the MEP context; where allowability of costs are established without knowing
         the actual resulting outcome and the proper mechanisms (subrecipient agreements) are
         in place in order to provide the ability for governing bodies, whether it be the Prime
         Agency (UTA or TEEX for their SubrecipienUPartners), the federal independent oversight
         body (OIG), or the federal sponsoring agency (NIST) to review the effective use of federal
         funds.

         The implementation of the Monitoring Plan demonstrates due diligence necessary to
         administer federal funding in accordance to the documentation noted above {subsections
         A-0). Moreover, this monitoring process was commended by the OIG auditors during the
         audit and at the audit exit conference.

         F) Other Programmatic Responses to the OIG:

         From Page 2 of the OIG Draft Audit Report:
         "Therefore, UTA's cost claims to NIST include $1,272,827 for services provided to
         manufacturers whose only connections to the mission of the MEP are (1) they happen to
         be located in the state of Texas and (2) they may have been advised of additional
         services they could receive from MEP."

         The services BMC and ESTI provide to manufactures are directly related to the mission
         of the MEP which is:
                 "To strengthen the global competitiveness of U.S.-based manufacturing by
                 providing information, decision support, and implementation of innovative
                 approaches focused on leveraging new technologies, techniques, and business
                 best practices."



UTA Response to Draft Audit Repon No. DEN-18573                                            Page: 14
September 19, 2008
         BMC and ESTI work with manufactures not simply because they happen to be in the
         state of Texas, but rather BMC and ESTI add unique services to the TMAC portfolio that
         cannot be found anywhere else in the state or elsewhere in the country.

         Cross-promotional activities among TMAC regions and partners expand market
         opportunities for all. TMAC works hard to build an image across the state, expending
         resources and time to develop leads that generate revenue. It is not trivial, and by having
         TEEX, which is well known throughout the state, marketing TMAC products is a definite
         benefit for TMAC. BMC may not have the same reputation as TEEX, but they do have a
         lot of visibility in the state. Having them promote TMAC is a definite benefit to the TMAC
         goal of creating an image. TMAC promotes both BMC and ESTI. In turn, BMC and ESTI
         promote TMAC.

         Page 2 of the OIG Draft Audit Report continued:
         "Though both subrecipient organizations charged their customers for services, neither
         used their reimbursements to reduce the amount charged to customers."

         TMAC charges customers for the cost of delivering the services. It is not a TMAC
         practice to use reimbursements to reduce the costs we charge customers. We do not
         believe that is desired by NIST MEP either. Nothing in the MEP Terms and Conditions or
         Operating Plan Guidelines stipulate a required pricing structure for MEP services. In
         TMAC, reimbursement dollars are used to pay for the cost of providing services in rural
         areas, to offset the inefficiencies of working with the smaller customers, developing leads
         and other expenses.

         Page 2 of the OIG Draft Audit Report continued:
         'Thus, the Texas-based manufacturers received no cost benefit from the subrecipients'
         association with the MEP program ... "

         Customers of both BMC and ESTI do benefit from federal support of these programs.
         The reimbursements allow the organizations to expand their capability and improve their
         services. Without the reimbursement, BMC and ESTI may not focus in areas related to
         the goals of the MEP.

          Page 2 of the OIG Draft Audit Report continued:
          "... and the $190,774 offederal funds received by the subrecipients appears to be a
          windfall for the subrecipients."

         This program is not a windfall for either BMC or ESTI. TMAC is leveraging their
         programs and in turn they have to meet additional obligations that they would not
         otherwise have to do. We have already mentioned the activities of Gordon Lohmeyer in
         promoting TMAC's image, an example of the additional costs incurred by BMC and EST I
         to participate in the program. The funds received by BMC are necessary to sustain their
         operations. Again, based on the desire to keep the service available to Texas
         Manufacturers, we feel it is reasonable way to allocate the funds.

         Page 2 of the OIG Draft Audit Report continued:
         "Furthermore, TEEX incuffed no costs associated with the claims submitted by its
         subrecipients, so the $190,774 reimbursement also appears as a windfall."

         TMAC-Statewide, the TMAC region that operates in East Texas does incur expenses to
         manage its partnerships with BMC and ESTI. More importantly, those ~artnerships
         provide resources that allow TMAC-Statewide to serve its entire rural region. This is a
         difficult area to serve because there are a relatively few number of companies, and a
         large area to cover.



UTA Response to Draft Audit Report No. DEN-18573                                           Page: 15
September 19,2008
         Companies clustered in northeast Texas are located 100-200 miles away from
         Statewide's offices in College Station. To serve those rural areas with MEP services is
         costly. The projects are typically small in scope and rural clientele have limited financial
         resources to justify the expense without leveraging additional funds accumulated trom
         other MEP activities. In fact, TMAC Statewide brought on Bill Cornett out of his office in
         Tyler to assist BMC on an ongoing basis with its metrics reporting as well as onsite
         monitoring of the subrecipient TMAC Statewide leveraged Cornett's presence in
         Northeast Texas to assist in business development and identifying other clients in need
         of TMAC services. Specifically, Cornett was instrumental in providing NIST MEP
         services to East Texas small manufacturers affected by Hurricane Rita. This ongoing
         presence in East Texas is a direct result of the funding received from the BMC activities
         in support of their administrative task burden.

          In allocating resources, TMAC operates to maintain a presence across the state. Each
          region has different challenges. How the federal dollars are allocated is a decision made
          by the region based on the situation and approved in the operating plan. The federal
          dollars received by TEEX are not a windfalL They are funds necessary to provide
          services across their region. The $190,774 received by TEEX is spent on the MEP
          program and maintaining a presence in rural areas.

          G) Summary Response:

          We feel the above summarizes a comprehensive response to alleviate the questioned
          items raised by the OIG. The Allowability of costs are described in accordance to
          applicable federal regulations in section A, the reasonableness of these questioned costs
          are established in the communication between NIST and UTA (section B) and are further
          validated in TMAC's evaluation and communication with NIST (sections C & D). The
          costs are also properly managed and monitored by the Prime Agency (section E) and
          their value added is presented in section C.

          The TMAC Partnership and leveraging of existing resources are encouraged by the MEP
          (section B & C above) and the sustainability or expansion of these services to reach
          small to medium manufactures is an important objective of the MEP. BMC and ESTI
          have shown evidence of the expansion of MEP services and they will continue to be
          evaluated in terms of their effectiveness. If the value added or return on investment is not
          reaching programmatic goals, there are mechanisms to divert federal resources into
          other programmatic avenues. Finally, it should be reiterated that value is subjective and
          is better decided by the Program (NIST and TMAC staff executing the program). The
          $1 ,271 ,827 in questioned subrecipient costs are allowable expenses and customary in
          accordance with program objectives.




UTA Response to Draft Audit Report No. DEN-18573                                              Page: 16
September 19,2008
2.   -          Claimed For Estimated Costs:

         Excerpt Pa e 3 from Draft OIG Re          rt:
          Estimatedcharges to internal accozmts. TEEX claimed              under its MEP subaward by
          allocating costs from 12 different program accounts from June 1, 2006, through August 31,
          2006. According to TEEX officials, the organization conducted an internal "brainstorming
          session" in JUlle 2006 to determine what percentage oftime various TEEX programs spent
          dealing with manufacrurers in the state of Texas. They consulted with program managers to
          detennine which services benefited manufacturers within the state ofTexas, and allocated
          expenses incurred by those divisions based on estimates. The allocations were based on types
          ofservices performed, rather than on work performed for the benefit of specific MEP
          customers.

           TEEX concluded that 12 program accounts were candidates for atlocation and claimed as
          MEP project costs the respective percentages oftotal costs in each account during the 3­

          cost claims, 4accounts were allocated at. percent, and 1 account was allocated
          percent
                                                                                            at.
          month period in question. Seven ofthe 12 accounts were allocated a t . percent to MEP



           We asked for documentation supporting how these percentages were derived. Officials told
           us that no written records had been retained and that all TEEX personnel involved in
           develo ing the percentages had left the or anization.


         Excerpt Page 3 from Draft OIG Report
          We reviewed the UTA's MEP operating plan for the period September 1, 2005, through
           August 31, 2006, to determine whether the university and NIST were aware that TEEX
           would be allocating estimated costs incurred by programs outside its dedicated MEP
           program. We found no such reference but did find that TEEX's operating plan budget fo.r this
           award year showed 13 full-time staff performing MEP services. The opemting plan for the
           subsequent award period provided for·only 3 full-time staff. During this period TBEX
           experienced a significant departure of MEP dedicated staff and it appears that during the final
           3 months of the subaward period ending August 31, 2006, TEBX allocated- from
           other TEEX programs to its MEP subaward to, in part, make up for costs it ~le to
           claim as staffleft its MEP program.

         TEEX Response:
         In GY11, TEEX supplied TMAC-Statewide with 12 Agency Funded Projects that
         were intended to enhance the TMAC offerings for manufacturers. The plan
         for this new funding and projects was included in our GY11 Operating   ·
         Plan and the budget approved by NIST. These efforts explained the increase
         in FTEs for that period. The projects started in January but were not
         allocated to TMAC expenses until June after we were able to see what the
         direct benefit to manufacturers would be. In May. the TMAC team and
         Project Managers met to determine the proportional benefit of each
         project as it applied to manufacturers.

         The Project Managers detennined the percentage of each project's customer
         base that was a manufacturer in Texas based on the previous five months'
         activities. These percentages were then applied to the total expenses
         for each of the projects and reported on our monthly TMAC RFRs beginning
         in June. The same percentages for each project were used for the
         remaining two months of the grant year, July and August. based on input
         and verifiCation from the Project Managers that the prior allocations were accurate.



UTA Response to Draft Audit Report No. OEN-18573                                                     Page: 17
September 19, 2008
         These activities included, but were not limited to, Technology Commercialization/
         Technology Diffusion, Economic Development for smaller communities (of which
         manufacturing is an important part). Supply Chain issues and training, and Business
         Continuity, as spelled out in our GY11 Operating Plan. Allocation of cost based on
         proportional benefit is allowable under 2CFR220 Section C 4d(3). As to the allocation of
         cost. seven of the twelve program accounts were allocated at one hundred percent. This
         is not an issue of proportional benefrt and should not have been questioned for the
         reasons as described above.

         When we were preparing the budget and plan for GY12, we evaluated the model that we
         had been using and adjusted that model to better serve the manufacturers of the State of
         Texas. When we submitted our Strategic plan for GY12-14 the alliances with BMC and
         EST I were included in our strategic goals. The partnerships with ESTI and BMC were
         entered into because they both offer products and services that are unique in the state
         and in other MEPs across the nation: Emergency training provided by ESTI and product
         development provided by BMC.


            • 	 Estimated clwrges (or training cla;r. TEEX claimed             in MEP costs related to a
                course titled "Basic Economic Development Course," which TEEX officials described as
                offering ttaining in bow private and public industrial and economic development
               organizations o pemte. We asked the basis for claiming this training as an MEP expense given
               that tbe content appCar.; to be outside the MEP's s~pe of providing assistance to Texas
               manufacturers. TEEX officials explained that lhe            claimed equals. percent ofcosts
               incurred in providing the training. They arrived at this percentage by estimating that if
               individuals attending the class do become associated with an industtial or economic
               development OTganization, they will spend. percent oftheir time providing services to
               manufacturers in the state ofTexas.

            TEEX's estimated charges in both instances violate 15 CPR, Sec.}4.21, which establishes
            minimum financial management standards for Department ofCommerce financial assistance
            awards. This regulation. incorporated into TEEX's subaward, requires that the recipient of
            financial assistance maintain a system that provides accurate, current. and complete disclosure of
            the financial results of each federally sponsored award. (See 15 CFR, Sec. l4.2l(b)(l).) Cost
            claims submitted to NIST must reflect actual costs incum:d in perfotming services under the
            MEP award, not-as in these instances-estimates based on assumed percentages ofcosts that
            may have some coMection to Texas manufacturers, but were incwred outside lhe MEP program.

          TEEX Response:
          The BEDC in question was included due to its direct impact on Texas manufacturers.
          Manufacturing and its importance to economic development is referenced several times
          throughout the course manual and TMAC is listed in the manual as a resource for the
          participants in this course. This course was determined to provide proportional benefits
          to the eligible class of customers under this grant and costs were divided accordingly, as
          allowed by 2CFR220.

          We agree that we are subject 15 CFR, Sec 14.21 and contend that we are in compliance
          with that regulation by following 2CFR220 Cost Standards for Educationallnstitutions,
          which is also required by the subaward. While 15 CFR Sec 14.21 provides high-1evel
          guidance, the detailed guidance 2CFR220 allows for the allocation of cost based on
          proportional benefit.




UTA Response to Draft Audit Rcpon No. DEN-18573                                                            Page: 18
Sq>tember 19, 2008
3.   ~ Unsupported In-Kind Contributions:

         Excerpt Paoe 4 from Draft OIG Audit Report
           Subrecipien.t TEEX claimed to have received. , . in in-kind conttibutions for MEP roarlceting
           services provided by regional economic development centers. The value of lhese contributions
           were based on . percent of one employee's salary paid by three agencies during a 5-month
           period and recorded as contractual costs by liTA. We questioned this amount because lEEX did
           not have the following support documentation for the contributions, as required by MEP General
           Terms and Conditioris:

               •   A list of projcctsltasks and dates worked.
               •   Number of hours.
               •   Hourly salary mte and allowable fringe benefits paid.
               •   Certified time and attendance records.

         TEEX Response:
         The in-kind contributions for the regional economic de~elopment centers submitted by
         TEEX were based on the proportional benefit of one employee at each of the three
         centers. TEEX reported the expense of three salaried employees based on . % effort
         for the distribution of MEP information to potential customers of the MEP program. The
         documentation of the in-kind contribution was captured on a "TMAC Non-Cash
         Contribution Form" with an after-the-fact certification. This Form includes the percent of
         time and salary rate, is signed by the contributor after the services were provided, and
         confirm ed by the Regional Director for the benefit having been received and is attached
         as Exhibit 7.

4. 	 $6,439 Excessive Indirect Costs Claimed:

         The NIST Approved Budget for the Prime Awardee, UTA, did not exceed the funds
         budgeted for indirect. Therefore, UTA did not need NIST approval for budget changes at
         the subrecipient level.

5. 	 Other Subreciplent lssue·s:

          a. 	 Questioned Indirect Costs: The reallocation of the budget to move funds from
               indirect costs to direct costs in the su~agreement between UTA and TEEX was
               approved by UTA in Amendment 3 to that agreement (Exhibit 8).
          b. 	 Excessive Fringe Benefit Costs: The Issue of fringe benefits being mistakenly
               included twice by BMC in reported expense was identified and disdosed by TEEX
               (via the mechanism described in section 1 E above) and has been corrected in the
               August 2007 RFR (Exhibit 9).
          c. 	 Estimated Program Income: The issue related to the reporting of program income
               was identified during the monitoring visit by UTA (described in section 1E above}.
               Program income has been verified from GY1 1 forward. Program income carryover
               wUI reflect the adjusted amounts.
          d. 	 Improperly recorded Indirect Costs: TMAC acknowledges this issue and SWRI
               has already corrected.

UTA QUESTIONED COSTS

     1. 	 -        in Questioned Lobbying Costs: UTA was never asked by the OIG to provide
          an explanation for these questioned costs paid to the Ameri<;an Small Manufacturers
          Coalition (ASMC). As explained in Exhibit 10, the dues paid by UTA did not support any
          lobbying activities.



lJTA Response to Otaft Audit Report No. OEN-18573                                                           Page: 19
September 19.2008
    2. 	 ~ in Unallowable Other Direct Costs: These costs were pre-identified by UTA
         to"iii'e"(51G as being inadvertently charged to the federal government. Corrections have
         already been made and are evidenced by the Statement of Accouht for September 2007;
         see Exhibit 11 .

    3. 	               ~~~~t :;:_~~~~~-                     The Questioned Indirect Costs should be
                                                   ndirect were never daimed on the          charge. It is
                                                   costs are allowable because the          n ASMC dues


SUMMARY:

Of the $1,633,870 in total questioned costs, UTA concurs onl y - in UTA Unallowable Other
Direct Costs. Moreover, we have already corrected this amount with NIST. We also note that
~ of the Indirect Costs questioned by the OIG was never daimed by UTA. It is UTA's
p'OsmO'n that all other questioned costs are in fact allowable and supported by the evidence
presented in this document and its exhibits.




UTA Response·to D11ft Audit Report No. DEN-I8573                                                  Page:20
September 19. 2008
